December 2005
Report No. 06-004


Project Management Framework for the
Asset Servicing Technology Enhancement
Project




             AUDIT REPORT
                                                                                                           Report No. 06-004
                                                                                                             December 2005

                                     Project Management Framework for the Asset Servicing
                                     Technology Enhancement Project (ASTEP)
                                     Results of Audit
                                     The ASTEP project management team developed planning documents and
                                     implemented various activities that generally complied with the FDIC’s project
                                     management guidance and that the project team considered commensurate with the
Background and Purpose of
                                     status of the project. During the initiation phase of ASTEP, the project management
Audit                                team performed business case analyses to identify benefits and improvements to the
One of the FDIC’s critical           current system of asset servicing and developed a project work plan identifying
functions is to manage and           activities to complete associated milestones. During the planning phase for system
liquidate all assets of failed       development, the project team also developed project charters that defined the goals
financial institutions. The          and objectives for various project teams’ functions and a project governance
Corporation’s existing asset         structure that described support functions to manage system development activities.
servicing environment comprises      Additionally, the project team developed acquisition strategy, communications, risk
a complex system of external,        management, and configuration management plans.
interim, and internal (in-house)
servicing capabilities. The in-      As ASTEP enters into the execution phase for system development and is
house technology consists of         re-baselined, the project team needs to further strengthen its planning documents and
aging and highly customized          management control processes to take into account the additional information
commercial off-the-shelf software    obtained during the earlier project phases and to be commensurate with the
and internally developed             additional risk associated with latter project phases. Strengthening the project
applications that fulfill specific   management controls will facilitate decision making and monitoring and help ensure
business functions. The purpose      that ASTEP meets the needs of its users within schedule and budget requirements.
of the Asset Servicing
Technology Enhancement Project       Recommendation and Management Response
(ASTEP) is to modernize the          KPMG recommended that as part of project re-baselining efforts, the FDIC:
asset servicing function and align      • fully document the costs and benefits of the ASTEP solution selected, and
the processes performed under           • enhance the ASTEP planning process to address the areas of improvement
this function with industry best           discussed in the report to achieve greater compliance with the FDIC Project
practices. ASTEP will allow the            Management Guide and to provide greater assurance of ASTEP success.
FDIC to maximize the use of
commercially available software      Management agreed with the recommendations and has either initiated or plans to
products to integrate as much of     initiate corrective actions.
the asset servicing function as
possible and to provide the FDIC
with a variety of vendor sourcing                                                   Thought
options.                                                                          leader and
                                                                                 visionary for
                                                                                 the banking
The objective of the audit was to                                                 community
determine whether the FDIC has
established an adequate project
                                                                                 Be a seller
management control framework
                                                                          Ability to scale to handle
for ensuring the delivery of                                              failure of a large institution
ASTEP in a timely and cost-
                                                                       Move organization away from
effective manner to meet                                                      functional silos
corporate requirements and user                                        Adopt industry best practices
needs. The report was prepared
by KPMG LLP under a contract
with the Office of Inspector                               Single source of data         Common user interface/
                                                                                           experience
General (OIG) to provide                                   Single reporting platform
professional audit services.                                                              Automated workflows
                                                           Adaptable integration
                                                            Infrastructure                Enhanced data quality and
                                                                                           timeliness

                                                   Source: ASTEP Current State Assessment Report, December 7, 2004.
Federal Deposit Insurance Corporation                                                                    Office of Audits
801 17th Street NW, Washington, DC 20434                                                    Office of Inspector General




DATE:                                  December 16, 2005

MEMORANDUM TO:                         Mitchell L. Glassman
                                       Director, Division of Resolutions and Receiverships



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Stephen M. Beard]
                                       Assistant Inspector General for Audits

SUBJECT:                               Project Management Framework for the Asset Servicing
                                       Technology Enhancement Project
                                       (Report No. 06-004)

Enclosed is a copy of the subject report prepared by KPMG LLP under a contract with the Office
of Inspector General. Please refer to the Executive Summary for the overall audit results. The
firm’s report is presented as Part I of this document.

A summary and evaluation of your response, the response in its entirety, and the status of the
recommendations are contained in Part II of this report. The response adequately addressed the
recommendations in the report. We consider the recommendations to be resolved, but they will
remain open until we have determined that agreed-to-corrective actions have been completed and
are effective.

If you have any questions concerning the report, please contact Stephen M. Beard, Deputy
Assistant Inspector General for Audits, at (202) 416-4217, or Ben Hsiao, Associate Director,
Systems Management and Systems Security Directorate, at (202) 416-2117. We appreciate the
courtesies extended to the audit staff.

Attachment


cc: Steven Trout, DRR
    Rack Campbell, DIT
                                  Table of Contents



Part I:

           Report by KPMG LLP
           Project Management Framework for the Asset Servicing Technology Enhancement
           Project                                                                    I-1


Part II:
           Corporation Comments and OIG Evaluation                                   II-1
           Corporation Comments                                                      II-4
      Part I
Report by KPMG LLP
         Project Management Framework for the
Asset Servicing Technology Enhancement Project (ASTEP)


                   Prepared for the
         Federal Deposit Insurance Corporation
              Office of Inspector General




                              Prepared by:
                               KPMG LLP
                 Risk Advisory Services – Federal Practice
                           2001 M Street, NW
                         Washington, DC 20036
                             (202) 533-3000
                              TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                           3

Results of Audit                                                            4
Recommendations                                                             5

BACKGROUND                                                                  6

DETAILED FINDINGS                                                           9
FINDING 1: Cost-Benefit Analysis                                            9
FINDING 2: Improvements in Project Planning                                11

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY                              16

APPENDIX B: FDIC PROJECT MANAGEMENT FRAMEWORK                              18

APPENDIX C: PMBOK® GUIDE OVERVIEW                                          20

APPENDIX D: ACRONYMS                                                       22


TABLES
Table 1: Summary of Findings                                                4
Table 2: ASTEP CBA – Return on Investment Study                            10
Table 3: Mapping of PMBOK® Guide Knowledge Areas to Management Processes   20

FIGURES
Figure 1: ASTEP Project Vision and Objectives                               6
Figure 2: FDIC Project Management Life Cycle                               18




                                         I-2
EXECUTIVE SUMMARY

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) contracted
with KPMG LLP (KPMG) to provide professional audit services. KPMG was tasked under the
contract to audit and report on the effectiveness of the project management framework for the
FDIC’s Asset Servicing Technology Enhancement Project (ASTEP).

The objective of the audit was to determine whether the FDIC has established an adequate
control framework for ensuring the delivery of ASTEP in a timely and cost-effective manner to
meet corporate requirements and user needs. The audit addressed key elements associated with
effective project management such as documenting the project scope, tasks, schedules, allocation
of resources, performance measurements, and inter-relationships with other projects. Project
management activities cover the full spectrum of a project; from procurement and contract
management to managing team and project performance; from risk management to
communications; and from controlling scope “creep” to ensuring quality control. A detailed
discussion of the audit objective, scope, and methodology is provided in Appendix A of this
report.

In evaluating the effectiveness of project management practices for ASTEP, KPMG relied on the
FDIC’s Project Management Governance policy and the FDIC Project Management Guide; both
were issued in September 2004. The governance policy identifies key governance authorities1
over projects and defines project management policy and oversight standards applicable to all
projects at the FDIC. The policy states that all projects shall conform to minimum standards and
procedures of an FDIC project management methodology as described in the FDIC Project
Management Guide.2 The governance policy also provides oversight, funding, training, and
reporting requirements applicable to effective management of FDIC projects. The FDIC Project
Management Guide establishes a project management framework to provide project managers
with repeatable and sustainable guidelines to ensure projects are well coordinated, thoroughly
planned, properly executed, and closed out in accordance with managed and disciplined
processes. The guide also includes templates and checklists that are intended to help project
managers effectively and efficiently implement FDIC projects. The use of the techniques and
forms in the guide is highly encouraged but is not mandatory. For further details on the project
management framework, see Appendix B.

KPMG conducted its work from March 11, 2005 through July 29, 2005 in accordance with
generally accepted government auditing standards.




1
  Governance authorities, such as the key decision makers, include the Capital Investment Review Committee
(CIRC), Chief Information Officer (CIO) Council, and Division Executive Sponsors.
2
  The methodology described in the FDIC Project Management Guide is based on the Project Management
Institute’s (PMI), Project Management Body of Knowledge (PMBOK®) Guide, which is recognized as a commercial
and public sector “best practice.” Appendix C of this report provides an overview of the guide’s applicability to the
FDIC.


                                                         I-3
Results of Audit

The ASTEP project management team developed planning documents and implemented various
activities that generally complied with the FDIC’s project management guidance and that the
project team considered commensurate with the status of the project.

As ASTEP enters into the execution phase of system development (execution phase) and is re-
baselined, the project team needs to further strengthen its planning documents and management
control processes to take into account the additional information obtained during the earlier
project phases and to be commensurate with the additional risk associated with latter project
phases. Strengthening the project management controls will facilitate decision making and
monitoring and help ensure that ASTEP meets the needs of its users within schedule and budget
requirements. Table 1 provides a summary of KPMG’s findings and areas in which project
planning could be strengthened.
Table 1: Summary of Findings
  Element of           Description                                                     Assessment
    Project
   Planning                                            Summary of Status                       Areas That Could Be Strengthened

Business Needs     To justify how the        • Business case analysis was              • Cost and benefit estimates for the ASTEP
                   project will meet             performed.                                solution should fully describe how estimates are
                   needs.                    •   Benefits and process                      derived.
                                                 improvements were identified.
Description,       To provide an             •   Adequate descriptions were            • Not applicable.
Goals, and         understanding of              provided.
Objectives         the program nature        •   Goals and objectives for various
                   of the project.               project teams/functions were
                                                 identified.
Organization,      The organization,         •   Project team members were             • Roles and responsibilities addressing inter-
Roles, and         staff, roles, and             identified.                               relationships and integration of responsibilities
Responsibilities   responsibilities          •   Roles and responsibilities were           across charters should be defined.
                   involved in project           fully defined for executive sponsor
                   development.                  and project manager only.
Work               The supporting            •   ASTEP governance handbook             • In the WBS, relationships between major
Breakdown          detail to plan,               requires a WBS.                           activities, tasks, and deliverables should be
Structure (WBS)    organize, and             •   Work products were defined as             defined with supporting detail to plan, organize,
                   control work                  deliverables.                             and control work performed.
                   performed.
Project Schedule   The task, duration,       • ASTEP governance handbook               • A project schedule should be established that is
                   resource                      provides guidance on developing a         accurate, complete, and at a level of detail
                   availability,                 project schedule.                         sufficient for project management.
                   milestones, and                                                     •   Tasks/milestones critical to project success need
                   constraints.                                                            to be identified and highlighted for monitoring
                                                                                           purposes.
                                                                                       •   Staff and capital resource availability should be
                                                                                           addressed.
Resource/Cost      The resource              • The contractor was identifying          •   Resources should be budgeted based on the
Estimate           estimate for each             staff resources for each activity.        activities in the WBS and actual costs should be
                   WBS element by                                                          tracked in relation to the budgets.
                   resource category                                                   •   FDIC staff resource requirements, including
                   (e.g., capital, fiscal,                                                 costs, should be fully defined.
                   personnel, and                                                      •   The type of resource should be defined (e.g.,
                   time).                                                                  capital resources such as office space, supplies,
                                                                                           information technology (IT) equipment, and




                                                                    I-4
  Element of           Description                                                   Assessment
    Project
   Planning                                          Summary of Status                       Areas That Could Be Strengthened

                                                                                         other materials for the ASTEP development,
                                                                                         test, and production environment).
Acquisition Plan    The processes for      • ASTEP Acquisition Strategy was          ●   Not applicable.
                    acquiring needed           defined.
                    resources.
Project Controls    To monitor project     • Weekly meetings and bi-weekly           • A formal process at the project level should be
                    scope, schedule,         status reports monitor project              established to evaluate variances and, if needed,
                    and cost                 progress.                                   to initiate corrective actions to control variances
                    performance. To            - Contractor was providing bi-            in schedule, cost, scope, resources, and quality.
                    identify variances            weekly status reports on           •   A master project plan should be used to monitor
                    from planned                  schedule and revisions, issues,        and control progress.
                    objectives. To take           and risks.                         •   ASTEP-specific contract oversight procedures
                    corrective actions.    • Executive sponsors were briefed             should be formally addressed.
                                             monthly.                                •   An overall project performance measurement plan
                                                                                         should be established.
                                                                                     •   Project issue logs should be consistently used to
                                                                                         assess impact on schedule and budget.
Change              To manage              • Change management process was           •   The project baseline should be included as a
Management          changes in scope,          defined for managing all ASTEP            configuration item subject to change
                    schedule, outputs          system requirements.                      management control.
                    and deliverables.      •   Configuration Control Board
                                               (CCB) was established to review
                                               and approve changes proposed.
Risk                To identify, assess,   •   Risk Assessment Questionnaire         • The risk management plan should be finalized.
Management          and manage project         was completed to address              • The current risk management process should be
                    risks.                     likelihood of occurrence                  fully defined in a risk management plan.
                                               (qualitative).                        • Detailed risk mitigation plans should be
                                           •   Risk database/log was provided.           developed.
                                           •   Risks were reviewed in monthly        • Issues in contractor status reports should be
                                               meetings (high risks are identified       addressed in accordance with FDIC project
                                               in status reports to executive            management guidelines.
                                               sponsors).
Communications      To detail              •   Established communication plan        • Communication activities for ASTEP Oversight
Management          communication              was generally compliant with the          Managers and Technical Monitors should be
                    initiatives.               PMBOK® Guide.                             clarified.
                                           •   Stakeholder information needs
                                               were defined.
Source: FDIC Project Management and Governance Guides and ASTEP Project Planning Documentation.


Recommendations
KPMG recommends that, as part of the current project re-baselining efforts, the Division of
Resolutions and Receiverships (DRR), in coordination with the Division of Information
Technology (DIT):
   • fully document the costs and benefits of the ASTEP solution selected for development
        and
   • enhance the ASTEP project planning process to address the areas of improvement
        discussed in this report to achieve greater compliance with the FDIC Project
        Management Guide and to provide greater assurance of ASTEP project success.




                                                                  I-5
BACKGROUND

One of the critical functions for the FDIC is to manage and liquidate all assets of failed financial
institutions. The FDIC’s existing asset servicing environment is composed of a complex system
of external, interim, and internal (in-house) servicing capabilities. The in-house technology
consists of aging and highly customized commercial off-the-shelf (COTS) software and
internally developed applications that fulfill specific business functions. The FDIC uses 13
major asset servicing systems supported by a number of minor applications, automated utilities,
and contracted services.

The purpose of ASTEP is to modernize the asset servicing function at the FDIC and align the
processes performed under this function with industry best practices. ASTEP will allow the
FDIC to maximize the use of commercially available software products to integrate as much of
the asset servicing function as possible. ASTEP will
also allow the FDIC to use a variety of vendor-sourcing
options. Figure 1 illustrates ASTEP project vision and
objectives.                                                        Thought
                                                                              leader and
                                                                             visionary for
The FDIC established ASTEP on October 7,                                  the banking
2003, and the FDIC Board of Directors                                      community
                        3
approved $31.8 million for ASTEP
development. Prior to Board approval of                                  Be a seller
ASTEP, a cost-benefit analysis was                               Ability to scale to handle
performed that considered four options:                           failure of a large institution
    • Status Quo – No change (this was                         Move organization away from
                                                                         functional silos
       not considered by DRR as a
                                                               Adopt industry best practices
       viable option);
    • Enhanced Status Quo – Enhance
       National Processing System                 Single source of data           Common user interface/
              4                                                                     experience
       (NPS), as the system for                   Single reporting platform
       servicing receivership loans,                                               Automated workflows
       to be compatible with an                   Adaptable integration
                                                   Infrastructure                  Enhanced data quality and
       upgraded operating system;                                                   timeliness
    • NPS Replacement – Replace
       NPS with a COTS                            Figure 1: ASTEP Project Vision and Objectives
       product that is hosted by         Source: ASTEP    Current State Assessment Report, December 7, 2004.
       a contractor application
       service provider (ASP); and
    • “Best of Breed” – Replace NPS with a COTS product that is hosted by an ASP. Also,
       integrate asset servicing business processes applications and databases through the use of
3
  The $31.8 million budget for ASTEP development included about $2.9 million as a contingency reserve with an
estimated project completion date of March 2005. Total budget outlays estimates, including life-cycle maintenance
costs, shown in the FDIC’s cost-benefit analysis was $54.7 million over an 8-year period.
4
  NPS is a highly customized COTS product that is the major component of asset servicing systems and tracks
activity on assets owned by receiverships and the Corporation.



                                                        I-6
         middleware technology5 and data warehousing with data transformation and workflow
         capabilities to achieve a common source of data and to maximize sharing of updates
         across the organization.

DRR selected the “Best of Breed” solution, which consists of key IT components that will
facilitate achieving the following:
•        replacement of NPS with an industry standard asset servicing loan accounting system that
         is hosted by an ASP for managing loan assets acquired from failed banks and financial
         institutions;
•        implementation of middleware technology to integrate applications and databases and
         standardize data flows between FDIC contract servicers and interim servicers (banks);
•        security protocols that will authenticate and facilitate secure data transmission from
         external data sources and will support single sign-on for users; and
•        implementation of a data warehouse to provide a timelier asset data and enterprise portal
         in handling ASTEP reporting requirements.

The FDIC’s expectations are that this approach will apply industry’s best practices in
streamlining the asset servicing process, which will also involve extensive re-engineering of the
asset servicing business process cycles related to managing and servicing an asset from
acquisition by the FDIC to asset disposition.

The FDIC has contracted with three vendors to (1) provide project management advisory
support, (2) replace NPS with a COTS Loan and Customer Information System managed by an
ASP, and (3) develop the designated requirements and system design for the remaining ASTEP
solution, and implement the solution. Key activities performed to date include: replacing NPS
with the ASP, Metavante Corporation, in March 2005 (the first significant aspect of the ASTEP
implementation); completing a requirements analysis in June 2005; and completing the system
design in August 2005.

Originally, ASTEP system deployment was to occur by March 2005. However, the project has
experienced delays. The project management team indicated that the delays were due to
unforeseen circumstances that were not under its control, such as delays in obtaining contract
authority; procuring the services of the three vendors; acquiring and piloting a new middleware
software product (Websphere, which incurred a 9-month delay); and changing the procurement
approach from task assignments to task orders. The project management team also indicated that
further delays occurred because of organizational changes that limited availability of the staff to
work with the contractor responsible for performing ASTEP requirements and design activities.

In September 2005, the ASTEP project management team began updating the cost and benefit
estimates on the current ASTEP “Best of Breed” solution based on detailed information obtained
from performing requirements analysis and design specification activities. The process of
updating the estimates is part of the project management team’s efforts to re-baseline the project
because the original deployment goals and objectives are no longer achievable within the
original timeframe. According to ASTEP management officials, their more complete
5
 Software that increases the flexibility, interoperability, and portability of existing infrastructure by linking or
“gluing” two otherwise separate applications.

                                                            I-7
understanding of system requirements and design specifications will enable them to more
accurately determine the costs and benefits of the project. This, in turn, will enable the ASTEP
project management team to develop a more accurate, relevant, and reliable revised project plan.

Project Management Principles Applicable to ASTEP

In September 2004, the FDIC issued its Project Management Governance policy to identify key
governance authorities over projects and to define project management policy and oversight
standards applicable to all projects at the FDIC. The policy states that all projects shall conform
to minimum standards and procedures as defined in the FDIC Project Management Guide also
issued in September 2004. The guide establishes a project management framework to provide
project managers with repeatable and sustainable guidelines to ensure that projects are well
coordinated, thoroughly planned, properly executed, and closed out in accordance with managed
and disciplined processes (see Appendix B).

ASTEP Management Structure

The ASTEP project management team consists of a group of Executive Sponsors from DRR,
DIT, Division of Administration (DOA), and Division of Finance (DOF); a senior management
official from DRR who serves as the principal executive sponsor; a DRR and DIT Project
Manager; and project core team members from DRR, DIT, and DOF. The DRR Project
Manager’s duties include orchestrating executive sponsor meetings; managing resources;
resolving business issues; providing oversight; managing one of the ASTEP contractors
(BearingPoint); and reviewing deliverables, invoices, and task orders. The DIT Project Manager
is the oversight manager for the Deloitte Consulting LLP contract responsible for reviewing
deliverables, invoices, and task orders. The core team members provide various services to
ASTEP related to administration and technical project management oversight, including
monitoring the contractor and serving as coordinators with end users and other projects with an
interest in ASTEP. Additionally, the ASTEP project management team has established a user
group that will assist in validating business process and data models, developing reports, testing
the system as its is developed, and acting as an intermediary with the ASTEP staff to address
questions or issues regarding the project.




                                                I-8
DETAILED FINDINGS

The project management team for ASTEP has applied several of the principles promulgated in
the FDIC Project Management Guide. During the initiation phase of the project, the ASTEP
project management team performed business case analyses to identify benefits and
improvements that can be made to the current system, including developing a conceptual model
for planning and executing the project; identifying positive and negative impacts of the project
on stakeholders; and developing initial estimates for the return on investment. The ASTEP
project management team developed project charters that define the goals, objectives, and
descriptions of various project functions to be performed, including the identification of key
team members. A risk analysis was completed prior to project commencement to identify issues
that could negatively impact the project. At the start of systems development life-cycle
activities, the project management team developed a governance structure and a schedule-based
project plan that describes various functions to manage ASTEP analysis and design activities.
During that period, the project management team also developed an integrated acquisition
strategy, as well as communications, risk management, and configuration plans.

As ASTEP enters into the execution phase and is re-baselined, the FDIC needs to strengthen its
project management control framework through completion of the ASTEP master project plan.
Specifically, the FDIC needs to more fully describe the methods used in deriving the costs and
benefits associated with the ASTEP solution and improve various elements of project planning to
achieve greater compliance with the FDIC’s project management guidance and to provide greater
assurance of ASTEP success. If these issues are not fully addressed, the FDIC may lack
sufficient information to make informed decisions regarding project development activities that
may impact the success of the project. Details of these findings are addressed below.

Finding 1: Cost-Benefit Analysis

Condition:
The ASTEP Cost-Benefit Analysis (CBA) generally stated that the ASTEP project management
team received information from a variety of sources for use in determining quantifiable costs of
the options. The information included (1) 2003 budget estimates and rates that served as the
basis for estimating the future cost of operations, maintenance, and new development and
(2) other cost estimates provided by companies offering services to the FDIC based on either
hourly rates or costs that were offered on a per-function or per-transaction basis or that were
based on formulas such as a percentage of loan volumes or loans processed.

The CBA report did not link the estimated cost items to their sources and fully describe methods,
assumptions, and rationales for determining life-cycle costs and benefits for the options
reviewed. Specifically, for the budget category line items in areas such as new development and
maintenance, KPMG noted that cost breakdowns for the options reviewed often did not describe
how estimates had been derived. For example, many line items listed the number of FDIC




                                               I-9
employees (full-time equivalents) or contractors needed but did not justify the activities planned
to be performed or work products to be completed. In other instances, only partial explanations
were provided.

Similarly, KPMG found that estimates for the benefits associated with the “Best of Breed”
option were not fully explained. Moreover, the CBA report indicated material quantifiable
benefits realized only for the “Best of Breed” option, which was the only option that addressed
all aspects of the asset servicing business process cycles. The CBA report stated that the
Enhanced Status Quo and NPS Replacement options addressed only business functionality and
did not significantly improve the FDIC’s current or future business environment. Consequently,
only the “Best of Breed” option, as shown in Table 2, contains a present value of accumulated
benefits. In addition, the “Best of Breed” option was partially based on vendor-specific
products, such as the use of NFE PeopleSoft Web portal and data warehouse products, and did
not include a general requirements review to determine the viability of these specific products to
ASTEP applications. In March 2005, the ASTEP project management team reported that the
NFE PeopleSoft portal and data warehouse could not interface with ASTEP applications.
Therefore, additional costs may be incurred in developing an ASTEP portal and data warehouse,
which would negatively impact the CBA.

Table 2: ASTEP CBA – Return on Investment Study
                                                                      Options
                                                               (Amounts in Thousands)
                                               Status Quo    Enhanced        NPS
                                                             Status Quo Replacement      Best of Breed

Total Present Value (PV) Accumulated Benefit $0             $0           $0             $11,965

Total PV Accumulated New Development Costs $0               $20,383       $20,857       $26,092
Total PV of Total Operations and Maintenance
Costs                                        $25,326        $30,734       $32,177       $28,617
Return on Investment                         N/A            -127%         -133%         -67%
Source: FDIC ASTEP Business Case and Value Analysis Executive Summary, August 15, 2003.

Cause:
The ASTEP project management team indicated that it did not have sufficient resources or
information to complete a more detailed evaluation that included an in-depth requirements
analysis and specifications of work products for the three alternative options reviewed.

The contractor for ASTEP development has recently developed system requirements and design
specifications for the “Best of Breed” option chosen as the ASTEP solution. The completion of
the system requirements and design will provide the information needed for the ASTEP project
management team to more accurately estimate the costs and benefits of implementing the “Best
of Breed” option as the project enters the execution phase.

Criteria:
There are several criteria related to cost-benefit analysis. The FDIC Capital Investment Policy,
issued on April 11, 2005, calls for a clear and complete CBA to ensure a well-informed decision
regarding capital investments such as ASTEP.

                                                  I - 10
FDIC Circular 4310.1, Utilizing Cost Benefit Analysis Methodology for the Purchase or
Development of Capital Assets, dated July 17, 1998, and Office of Management and Budget
(OMB) Circular No. A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Programs, state that CBAs should be performed to promote efficient resource allocation through
well-informed decision making. The analysis should be explicit about underlying assumptions
used to arrive at estimates of future benefits and costs. The analysis should include a statement
of the rationale behind the assumptions and a review of their strengths and weaknesses. Key
data and results should be reported to promote independent analysis and review.

Effect:
A more detailed evaluation of costs and benefits would have provided the team with a more
comprehensive CBA and with resource requirements estimates of activities or work products.
The initial CBA did not contain sufficient information to fully describe budget category items’
costs and benefits for the options that were considered.

Because the system requirements and design specifications have been developed, it is important
that the ASTEP project management team accurately estimate the costs and benefits of the “Best
of Breed” option as the project enters the execution phase. Otherwise, the lack of accurate
estimates of costs and benefits will hinder management decision making and evaluations of
project performance.

Recommendation:
1. KPMG recommends that DRR, in coordination with DIT, fully document costs and benefits
   in updating the ASTEP solution through current re-baselining efforts, including addressing
   key activities associated with specified costs. This analysis should include the lower level of
   detail available from contractor-developed costs in deriving key system requirements and
   design specifications that address the ASTEP strategies identified by project sponsors.


Finding 2: Improvements in Project Planning

Condition:
KPMG found that the ASTEP project management team has developed planning documents and
implemented various activities that generally complied with the FDIC’s project management
guidance. However, the project team did not develop a project plan that fully complies with the
FDIC project-planning template provided in the FDIC Project Management Guide.
Improvements to various elements of project planning will achieve greater compliance with the
guide and provide greater assurance of ASTEP success as the project enters the execution phase.
Strengthening project planning will also facilitate decision making and progress monitoring and
helps ensure that ASTEP meets the needs of its users within schedule and budget requirements.
Specific areas needing improvements are discussed below.

Organization Roles and Responsibilities
The ASTEP governance handbook states that the ASTEP team and its subteams should define
their respective specific goals and responsibilities in project planning charters. KPMG’s review
of planning charters found that goals were specifically stated, but roles and responsibilities
addressing inter-relationships and integration of responsibilities across project charters were not

                                                I - 11
defined. This may impact the effectiveness of activities performed or desired outcomes
described in project charters for key areas such as ASP conversion, business process
improvement, change management, data and reporting, systems and technology, and training.

Work Breakdown Structure
The project Work Breakdown Structure does not adequately define and provide sufficient
supporting details for relationships between major activities and tasks to plan, organize, and
control the scope of work performed. For example, the WBS does not contain sufficient detail in
addressing tasks associated with defining ASTEP business process flows and developing detailed
system requirements and design specifications related to these business process flows.

Project Schedule
The master project plan does not accurately capture the estimated and actual project start and end
dates. Also, the project schedule, as the principal component of the master project work plan, is
not accurate and complete. KPMG noted many development activities that were not accurately
conveyed on the master project plan when compared to the contractor’s schedule, such as the
stated timelines for developing ASTEP design specifications and performing critical design
review activities. KPMG also noted that the master project plan does not contain a deployment
date or dates for several systems development activities that are critical to project success, such
as testing and data conversion; subprojects are inaccurately merged into the master plan; and
resource availability issues are not addressed.

Resource/Cost Estimate
The ASTEP project management team has not developed a cost allocation plan to show the
breakdown of the $31.8 million budget approved by the FDIC Board of Directors for ASTEP.
Without a plan that shows a breakdown of costs for performing systems development activities,
the ability of the project management team to manage and control resources for future project
activities may be impaired. Further, internal FDIC staff resource requirements, including costs,
have not been defined, and resource allocations for project tasks are focused on personnel
resources only and do not address other type of resources, such as office space, supplies, IT
equipment, and other materials for ASTEP development, testing, and production environments.

Project Controls
The project management team has not established a formal process to evaluate variances and, if
needed, initiate corrective actions to control variances in schedule, cost, scope, resources, and
quality. Beyond status meetings and biweekly status reports, there are no specific formal
processes to provide updates to the project plan and no formal controls to assess variances.
Additionally, the process for ASTEP oversight and technical monitors to assess contractor
performance activities has not been formally defined.

Another area of concern is that a master project performance measurement plan has not been
formalized to identify both qualitative and quantitative measures. Such measures determine
whether the execution of project activities is producing the desired effects in assessing project
success. The plan would align these measures with critical success factors defined at the onset of
the project, such as managing assets with external contractors; leveraging NFE technology;
having an in-house asset servicing capability; establishing the ability for users to access and view


                                                I - 12
asset data on both externally and internally managed assets; accommodating changes in FDIC
business processes; and applying an effective and highly efficient systems integration solution
between disparate data and applications.

The ASTEP project management team addresses these issues in a limited manner through
contractor status reports and user survey questionnaires taken upon completion of major
milestones. Also, the project management team tasked its systems development contractor to
define four high-level performance metrics related to cost, schedule, “goodness” of requirements,
and “goodness” of design. However, these efforts do not fully represent a formal master project
performance measurement plan that is linked to critical success factors and includes specific
methodologies to calculate and evaluate the results.

Change Management
The project management team has developed a configuration management plan and a change
control process. The plan describes the infrastructure and processes used to manage and control
changes to ASTEP deliverables and other important project-related work products. The plan
addresses the initial needs of ASTEP, which include the startup of a CCB and change
management processes for managing all ASTEP system requirements, including changes, and
assuring that the results conform to requirements.

However, the project baseline plan is not included as an item subject to change management
control. Establishing a baseline for the project plan under a change management process would
provide the ASTEP project management team more effective control over the project if it
diverges from the plan. If a corrective action requires a change to the project baseline, the action
should be submitted to and reviewed through the change management process that includes CCB
approval. Such a process is used to establish, analyze, communicate, and record approved
changes to the project baseline.

Risk Management
The current risk management process is not fully defined in the risk management plan, and
detailed risk mitigation plans prescribed in the plan have not been developed. Additionally,
issues and risks in contractor activity reports and deliverables were often not addressed in
ASTEP project management risk and issue logs or reports. For example, in reviewing a status
report issued on July 15, 2005, KPMG noted that risk issues related to poor scope definition,
timely access to staff and third-party vendors, and integration with ASP and other COTS
technologies had not been addressed in formal project management risk logs. Therefore, KPMG
could not determine the status of these issues and risk areas. The ASTEP project management
team started using issue logs in July 2005, but the logs do not assess impact on schedule and
budget in accordance with FDIC project management guidelines.

Communications Plan
On November 5, 2004, the ASTEP project management team issued a communications plan that
addressed, by stakeholder, the communications and events planned in order to successfully
implement ASTEP. However, an ASTEP risk assessment summary report indicated that there is
a lack of defined communication responsibilities for ASTEP Oversight Managers (OMs) and
Technical Monitors (TMs). These responsibilities, as required by the FDIC Acquisition Policy


                                                I - 13
Manual,6 would include specific guidelines on communicating with the contractor on the
performance of key requirements development activities, including modifications to
requirements; communicating with the FDIC Contracting Officer in the development and
implementation of an oversight monitoring plan to assist in the performance of oversight
activities for complex services contracts; and communicating with TMs in delegating
performance monitoring responsibilities. Communication responsibilities of OMs and TMs need
to be clearly defined because the level of contractor activity is expected to increase as ASTEP
enters into the execution phase.

Cause:
According to the ASTEP project management team, initial project plan development and
maintenance has not been emphasized. Instead, the team placed reliance on contractor task
orders and planning schedules to manage the project, which do not take into account overall
ASTEP project performance and management responsibilities. Additionally, to define a project
scope or WBS in managing and controlling specific project activities, the project management
team stressed that it needed the finalized requirements analysis and completed detail designs.
The project management team advised us that the WBS will be refined as the project progresses
through system development activities.

Criteria:
The FDIC Project Governance Guide states that all FDIC projects are required to complete and
follow all aspects of the FDIC project management methodology described in the guide. This
includes elements of project planning in documenting project scope, tasks, schedules, allocation
of resources, performance measurements, and inter-relationships with other projects. The project
planning activities should cover the full spectrum of a project – from procurement and contract
management to team and project performance management; from risk management to
communications management; and from controlling scope “creep” to ensuring quality control.
Additionally, the FDIC Project Management Guide emphasizes the creation and use of WBS and
performance measures for project planning. The WBS is the driver for project schedule and
project budget (e.g., resources, material, equipments, and contractors). The guide states that,
upon completion of the initiation phase, a WBS should be developed to plan, organize, and
control work performed in managing FDIC projects.

Performance measures determine whether the execution of the tasks is producing the desired
effects. Performance measures should be developed for lagging indicators of a project’s past
success or failure (such as the percentage of the budget spent or the percentage of deliverables
submitted on time). Project managers should also develop leading (predictive) measures that
prompt or support project execution decisions and can positively influence future success.

Effect:
Without effective management control and visibility into the activities occurring in ASTEP, the
project management team may lack sufficient detail to ensure that the project is successfully
executed and managed and that its status is communicated to stakeholders in a timely fashion.
Further, the development of comprehensive project planning documents is needed for the project
6
    FDIC Acquisition Policy Manual, Revision 3, May 31, 2004.



                                                       I - 14
management team to make informed decisions in moving forward with project system
development and deployment activities.

Recommendation:
2. As part of the current project re-baselining effort, KPMG recommends that DRR, in
   coordination with DIT, enhance the ASTEP planning process by addressing areas needing
   improvement, as discussed in this report, to achieve greater compliance with the FDIC Project
   Management Guide and to provide greater assurance of ASTEP success, including:

   •   Defining inter-relationships and integration of responsibilities across project charters.
   •   Defining the contractor oversight process in relation to ASTEP OM and TM roles,
       responsibilities, and communication activities.
   •   Developing an accurate and complete master project plan baseline, under configuration
       management control, that defines all major ASTEP activities, including integrating
       contractor subteam plans into the master project plan; defines project and performance
       measures to measure project success; identifies the scope of work for major activities
       defined in the plan through a WBS; and discloses fully the cost estimates for all resource
       categories.
   •   Establishing formal project controls to evaluate variances and, if needed, to initiate
       corrective actions for schedule, cost, scope, and quality variances.
   •   Updating and clarifying current risk assessment procedures and practices in the ASTEP
       risk management plan and finalizing the plan.
   •   Developing risk mitigation plans for high priority-risks as required by the ASTEP risk
       management plan and ensuring that issues and risks are addressed in either the risk or the
       issue logs in accordance with the FDIC’s project management guidelines.




                                               I - 15
              APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

Objective


The objective of the audit was to determine whether the FDIC has established an adequate
control framework for ensuring the delivery of ASTEP in a timely and cost-effective manner to
meet corporate requirements and user needs. KPMG conducted its audit work in Washington,
D.C., and Dallas, Texas, from March 11, 2005 through July 29, 2005 in accordance with
generally accepted government auditing standards.

Scope

The scope of coverage focused on evaluating the adequacy and effectiveness of key project
management planning activities, which included the following:

•   Business needs, project goals, and objectives are well defined.
•   The project team structure is defined, and roles and responsibilities are documented.
•   The plan is developed in sufficient detail, including work products and tasks, resources
    assigned, milestones, and constraints.
•   Resource and cost budgeting is established for the WBS.
•   An acquisition plan defines processes for acquiring and managing resource requirements to
    ensure resource availabilities.
•   Project control processes are implemented to monitor project scope, and measurements are in
    place for comparing actual work product and task attributes, effort, cost, and schedule to the
    plan at prescribed milestones or control levels within the project schedule or WBS. This
    includes determining whether controls enable timely corrective action to be taken when
    performance deviates significantly from the plan.
•   Change control management is in place to manage changes in scope, schedule, outputs, and
    deliverables.
•   The risk management process is documented and applied in identifying, assessing, and
    efficiently managing project risks.
•   A communications management plan identifies information recipients, their needs, and
    detailed communication methods and frequencies.

Methodology

KPMG evaluated the project management control framework for ASTEP according to the
FDIC’s Project Management Governance policy and the FDIC Project Management Guide,
which defines the FDIC’s project management methodology that all FDIC projects are required
to implement. The FDIC’s guide is based on the PMBOK® Guide, which is recognized as a
commercial and public sector “best practice.”




                                                I - 16
                                                                                  APPENDIX A

In assessing compliance with the FDIC Project Management Guide, KPMG performed the
following:
• Conducted interviews with DRR and DIT officials who are responsible for managing and
    implementing ASTEP to ascertain their understanding of the FDIC’s project management
    methodology.
• Conducted interviews with ASTEP stakeholders from DRR, DIT, and DOF in Washington,
    D.C., and Dallas, Texas, to determine their understanding of their roles and responsibilities
    and degree of involvement in system development activities.
• Conducted interviews with contractor management officials tasked to develop the ASTEP
    system to ascertain project management requirements established in accordance with the
    direction of the ASTEP project management team.
• Conducted interviews with contractor management officials responsible for providing project
    management advisory support to the ASTEP project management team to ascertain the
    support provided and the officials’ understanding of the project management control
    framework for ASTEP.
• Reviewed key system development documents in obtaining background information on
    ASTEP.
• Identified applicable FDIC policies and procedures related to project management.
• Obtained and reviewed project documents relevant to project management procedures and
    activities.
• Reviewed contract deliverables related to ASTEP systems development and advisory support
    provided to the ASTEP project management team.
• Obtained and reviewed ASTEP contractors’ task orders and requests for proposals.




                                               I - 17
                  APPENDIX B: FDIC PROJECT MANAGEMENT FRAMEWORK

In September 2004, the FDIC issued its Project Management Governance policy to promote
more effective management control in reducing project, business, and technical risks. The policy
identifies key governance authorities over projects and defines project management policy and
oversight standards applicable to all projects at the FDIC. This includes adhering to minimum
standards and procedures as defined in the FDIC Project Management Guide, which was also
issued in September 2004. The guide is based on the PMBOK® Guide, which is recognized as a
commercial and public sector “best practice.”

The FDIC Project Management Guide provides the FDIC with a project management
framework. As shown in Figure 2, the framework consists of five phases in a project’s life cycle.
Each project phase normally includes a set of defined deliverables designed to establish the
desired level of management control. Completing each phase provides the project managers with
the knowledge, tools, and expertise to be successful in subsequent phases. The guide provides
project managers with repeatable and sustainable guidelines to ensure that projects are well
coordinated, thoroughly planned, properly executed, and closed out in accordance with managed
and disciplined processes. Specific management control objectives and supporting processes
associated with each phase are described in Figure 2.

Figure 2: FDIC Project Management Life Cycle

    Initiation                  Planning                 Monitoring and Control              Close Out

    •Project Analysis        •Scope Definition                                            •Assess Project
    •Screen and              •Baseline Planning                                            Performance
                                                     •Monitor          •Execute Project
                                                      Critical                            •Closeout
     Approve                 •Create Plan                              •Manage Project
                                                      Indicators                          •Archive Project
    •Allocate Support        •Project                                  •Report Project
                              Governances                                                  Information
    •Establish Project                                                  Performances
                              Standard


Source: FDIC Project Management Guide, September 2004.


Initiation Phase (Phase 1): This phase ensures that managers and leaders associated with the
project understand the complexities and intent of a project before considerable effort is
undertaken to develop and execute it. In this phase, a decision is made on whether to implement
a project based on a CBA of alternatives reviewed by the FDIC’s senior management leadership.

Planning Phase (Phase 2): In this phase, the project plan is developed in sufficient detail to
allow the project to be successfully executed and managed and its status communicated to
stakeholders in a timely fashion. Sufficient detail includes estimating attributes of the work
products and tasks associated with the systems development efforts, determining the resources
needed, negotiating commitments, producing a schedule, and identifying and analyzing project
risks.




                                                              I - 18
                                                                                    APPENDIX B

Monitoring and Control Phase (Phases 3 and 4): During these two phases, the project
management team analyzes project reports, responds to changes to enable the project to remain
successful, and creates a means for timely and candid communications with senior leadership
and stakeholders to improve performance and efficiency. Specific activities would include
comparing actual work product and task attributes, effort, cost, and schedule to the plan at
prescribed milestones or control levels within the project schedule or WBS. The project
management team would also determine whether appropriate visibility enables timely corrective
action to be taken when performance deviates significantly from the plan. The Monitoring and
Control phase runs throughout the project’s life cycle.

Close Out Phase (Phase 5): This phase allows the FDIC to learn from each project experience
and ensures that each project has successfully fulfilled its fiscal obligations and accomplished its
original intent. In this phase, the project reaches one of three natural conclusions:
• Completion. The project manager or the FDIC senior leadership concludes the project
    because it either has accomplished its objectives or is not likely to do so with the remaining
    resources and time available.
• Continuation. The project manager or the FDIC senior leadership determines that the project
    should continue, either in its current form or in a modified form that stresses or tests another
    aspect of the project.
• Operationalization. If the results of the project warrant the modification of the
    organization’s business processes or procedures, the project is incorporated into the
    organization’s normal business routine.




                                                I - 19
                                 APPENDIX C: PMBOK® GUIDE OVERVIEW

The PMI has conducted extensive research and analysis in the field of project management and
has published a standards guide referred to as the PMBOK® Guide. The PMBOK® Guide
documents proven practices, tools, and techniques that have become generally accepted in the
field of project management, including information systems development and implementation.
The guide identifies project management life-cycle processes that the FDIC has applied in its
project management methodology as well as nine distinct knowledge areas, applied in varying
degrees that are associated with successful project management. Table 3 shows the relationship
of the knowledge areas to the project management processes for which the knowledge areas are
principally applied as key elements of the project planning and controlling processes.

Table 3: Mapping of PMBOK® Guide Knowledge Areas to Management Processes
                PMLC*
                          Initiation               Planning                   Executing               Controlling                Closing
Knowledge Area
Project Integration                        •   Project Plan             •   Project Plan        •   Integrated Change
Management                                     Development                  Execution               Control
Scope Management          •   Initiation   •   Scope Planning                                   •   Scope Verification
                                           •   Scope Definition                                 •   Scope Change
                                                                                                    Control
Time Management                            •   Activity Definition                              •   Schedule Control
                                           •   Activity Sequencing
                                           •   Activity Duration
                                               Estimating
                                           •   Schedule
                                               Development
Cost Management                            •   Resource Planning                                •   Cost Control
                                           •   Cost Estimating
                                           •   Cost Budgeting
Quality Management                         •   Quality Planning         •   Quality Assurance   •   Quality Control
Human Resource                             •   Organizational           •   Team
Management                                     Planning                     Development
                                           •   Staff Acquisition
Communications                             •   Communications           •   Information         •   Performance           •   Administrative
Management                                     Planning                     Distribution            Reporting                 Closure
Risk Management                            •   Risk Management                                  •   Risk Monitoring and
                                               Planning                                             Control
                                           •   Risk Identification
                                           •   Qualitative Risk
                                               Analysis
                                           •   Quantitative Risk
                                               Analysis
                                           •   Risk Response
                                               Planning
Project Procurement                        •   Procurement Planning     •   Solicitation                                  •   Contract Closeout
Management                                 •   Solicitation Planning    •   Source Selection
                                                                        •   Contract
                                                                            Administration
Source: PMBOK® Guide, 2000.
* Project Management Life Cycle.




                                                                       I - 20
                                                                                    APPENDIX C

The knowledge areas are described as follows:

•   Integration Management: The processes that ensure various elements of a project are
    properly coordinated. It consists of project plan development and execution and integrated
    change control.
•   Scope Management: The processes that ensure a project includes all of the work required,
    and only the work required, to complete the project successfully. It consists of initiation and
    scope planning, definition, verification, and change control.
•   Time Management: The processes that ensure timely completion of a project. It consists of
    activity definition, sequencing, and duration estimating as well as schedule development and
    schedule control.
•   Cost Management: The processes that ensure a project is completed within the approved
    budget. It consists of resource planning and cost estimating, cost budgeting, and cost control.
•   Quality Management: The processes that ensure a project will satisfy the needs for which it
    was undertaken. It consists of quality planning, assurance, and control.
•   Human Resource Management: The processes that make the most effective use of the people
    involved within a project. It consists of organizational planning, staff acquisition, and team
    development.
•   Communications Management: The processes that ensure timely and appropriate generation,
    collection, dissemination, storage, and ultimate disposition of project information. It consists
    of communications planning, information distribution, performance reporting, and
    administrative closure.
•   Risk Management: The processes concerned with identifying, analyzing, and responding to
    project risk. It consists of risk management planning, risk identification, qualitative and
    quantitative risk analysis, risk response planning, and risk monitoring and control.
•   Procurement management: The processes related to acquiring goods and services from
    outside the organization. It consists of procurement and solicitation planning, solicitation,
    source selection, contract administration, and contract closeout.




                                                I - 21
                   APPENDIX D: ACRONYMS


    Acronyms                              Definition
ASP            Application Service Provider
ASTEP          Asset Servicing Technology Enhancement Project
CBA            Cost-Benefit Analysis
CCB            Configuration Control Board
CIO            Chief Information Officer
CIRC           Capital Investment Review Committee
COTS           Commercial Off-the-Shelf
DIT            Division of Information Technology
DOA            Division of Administration
DOF            Division of Finance
DRR            Division of Resolutions and Receiverships
FDIC           Federal Deposit Insurance Corporation
IT             Information Technology
KPMG           KPMG LLP
NPS            National Processing System
OIG            Office of Inspector General
OM             Oversight Manager
OMB            Office of Management and Budget
PMBOK®         Project Management Body of Knowledge
PMI            Project Management Institute
PV             Present Value
TM             Technical Monitor
WBS            Work Breakdown Structure




                                I - 22
                Part II


Corporation Comments and OIG Evaluation
CORPORATION COMMENTS AND OIG EVALUATION

The report contains two recommendations for the Director, DRR. The Director, DRR, provided
a written response to the draft report on November 30, 2005. Management’s response is
presented, in its entirety, beginning on page II-4. DRR management concurred with the
recommendations, which we consider resolved, but they will remain open for reporting purposes
until we have determined that agreed-to corrective actions have been completed and are
effective. In addition to addressing the recommendations, the Director, DRR, also commented
on the content of the report. Based on the Director’s comments, we made changes to the report
content as deemed appropriate. DRR’s response to the recommendations is summarized below,
along with our evaluation of the response.

Recommendation 1: KPMG recommends that DRR, in coordination with DIT, fully document
costs and benefits in updating the ASTEP solution through current re-baselining efforts,
including addressing key activities associated with specified costs. This analysis should include
the lower level of detail available from contractor-developed costs in deriving key system
requirements and design specifications that address the ASTEP strategies identified by project
sponsors.

DRR Response: DRR concurs with the recommendation. According to established CIRC
procedures, if cost estimates remain within the approved investment budget, a formal document
updating the original cost-benefit analysis is not required. The ASTEP project management team
re-evaluated ASTEP costs, resulting in revised cost estimates within the approved investment
budget. The ASTEP project management team is in the process of obtaining concurrence from
the Finance Analysis Committee, the Chief Financial Officer, and CIRC, which is expected no
later than February 28, 2006.

OIG Evaluation of Response: DRR’s response adequately addresses our concern that cost
estimates needed to be updated to reflect system requirements and design specifications that
were not known at the time the initial CBA was done. However, the response did not address
whether benefits of the “Best of Breed” option had been updated to take into consideration this
additional information. We discussed this issue further with DRR management after receiving
its response. DRR management indicated that the original investment budget of $31.8 million
will cover all of the functional requirements associated with the benefits identified in the initial
CBA. Based on management’s written response and subsequent clarification, we consider the
recommendation resolved. Nevertheless, as required by the FDIC Capital Investment Policy, we
advise DRR to prioritize the requirements based on the associated benefits, such as those
identified in the initial CBA. Doing so will assist DRR in determining which requirements could
be deferred or eliminated in the event that certain costs were underestimated. The
recommendation will remain open until we have determined that agreed-to corrective action has
been completed and is effective.

Recommendation 2: As part of the current project re-baselining effort, KPMG recommends
that DRR, in coordination with DIT, enhance the ASTEP project planning process by addressing
areas needing improvement, as discussed in this report, to achieve greater compliance with the
FDIC Project Management Guide and to provide greater assurance of ASTEP project success,
including:

                                                II-1
   •   Defining inter-relationships and integration of responsibilities across project charters.
   •   Defining the contractor oversight process in relation to ASTEP OM and TM roles,
       responsibilities, and communication activities.
   •   Developing an accurate and complete master project plan baseline, under configuration
       management control, that defines all major ASTEP project activities, including
       integrating contractor subteam plans into the master project plan; defines project and
       performance measures to measure project success; identifies the scope of work for major
       activities defined in the plan through a WBS; and fully discloses cost estimates for all
       resource categories.
   •   Establishing formal project controls to evaluate variances and, if needed, to initiate
       corrective actions for schedule, cost, scope, and quality variances.
   •   Updating and clarifying current risk assessment procedures and practices in the ASTEP
       risk management plan and finalizing the plan.
   •   Developing risk mitigation plans for high-priority risks as required by the ASTEP risk
       management plan and ensuring that issues and risks are addressed in either the risk or the
       issue logs in accordance with the FDIC’s project management guidelines.

DRR’s Response:

   •   Defining inter-relationships and integration of responsibilities across project
       charters.

DRR agrees with this element of recommendation 2. The ASTEP team is currently reviewing
the team charter and will update it as deemed necessary.

   •   Defining the contractor oversight process in relation to ASTEP OM and TM roles,
       responsibilities, and communication activities.

DRR agrees. The ASTEP team will add a statement to the Communications Plan, which
acknowledges that OM and TM roles are defined and governed by the Acquisition Policy
Manual.

   •   Developing an accurate and complete master project plan baseline, under
       configuration management control, that defines all major ASTEP project activities,
       including integrating contractor subteam plans into the master project plan; defines
       project and performance measures to measure project success; identifies the scope
       of work for major activities defined in the plan through a WBS; and fully discloses
       cost estimates for all resource categories.

DRR agrees. The ASTEP team is committed to developing an accurate and complete master
project plan that is baselined under configuration management control, that is, a plan that
identifies the scope of work for major activities defined in the plan through a WBS. The ASTEP
project management team will have cost estimates for resource categories at the task-order level
for contractor resources. Project measures indicate whether the project is being executed
successfully, namely whether it is on time, on budget, and within scope. The ASTEP team uses
the required CIRC reporting process to assess these project measures and reports to the CIRC
and the ASTEP Executive Sponsors quarterly. In addition, a bi-weekly scorecard is prepared and

                                               II-2
reviewed with FDIC senior management. Performance measures to assess whether the execution
of the tasks is producing the desired effect will be monitored under a separate plan.

   •   Establishing formal project controls to evaluate variances and, if needed, to initiate
       corrective actions for schedule, cost, scope, and quality variances.

DRR agrees. The schedule will be monitored monthly by the ASTEP project management team,
using the Master Project Plan for scheduled starts, finishes, milestones, critical path, and percent
complete. As discussed earlier, the cost component of the Master Project Plan will be monitored
subject to FDIC system limitations. The Change Control will continue to monitor the scope
component of this element.

   •   Updating and clarifying current risk assessment procedures and practices in the
       ASTEP risk management plan and finalizing the plan.

DRR agrees. The ASTEP project management team will finalize the Risk Management Plan to
include the ASTEP team's current risk assessment procedures.

   •   Developing risk mitigation plans for high-priority risks as required by the ASTEP
       risk management plan and ensuring that issues and risks are addressed in either the
       risk or the issue logs in accordance with the FDIC’s project management guidelines.

DRR agrees. Rather than using the high-level templates in the FDIC Project Management
Guide, the ASTEP project management team is using the more detailed templates provided by
the FDIC’s Office of Enterprise Risk Management. The team is reviewing the ASTEP Risk Log
and Risk Management Plan to ensure that high-priority risks are identified with specific
mitigation plans. Risk mitigation plans will be updated in the Risk Log or Risk Management
Plan, as appropriate.

OIG Evaluation of Response: The corrective actions described in the response meet the intent
of the recommendation. We consider the recommendation resolved, but it will remain open until
we have determined that agreed-to corrective actions have been completed and are effective.




                                                II-3
II-5
II-6
II-7
II-8
II-9
II-10
                                                 MANAGEMENT RESPONSE TO RECOMMENDATIONS

          This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of
          report issuance.


                                                                                                                                                            Open
              Recommendation                                                                                         Expected       Monetary   Resolved:a     or
                  Number                        Corrective Action: Taken or Planned/Status                        Completion Date   Benefits   Yes or No    Closedb
                    1           The ASTEP project management team has re-evaluated the ASTEP costs,
                                resulting in revised cost estimates within the approved investment budget.
                                The ASTEP project management team is in the process of obtaining
                                                                                                                      2/28/06         N/A         Yes        Open
                                concurrence from the Finance Analysis Committee, the Chief Financial
                                Officer, and the CIRC.
                2 (Element 1)   The ASTEP team is reviewing the team charter and will update it as deemed
                                                                                                                      1/31/06         N/A         Yes        Open
                                necessary.
                2 (Element 2)   The ASTEP team will add a statement to the Communications Plan, which
                                acknowledges that the OM and the TM roles are defined and governed by the             1/31/06         N/A         Yes        Open
                                Acquisition Policy Manual.
II - 11




                2 (Element 3)
                                The ASTEP project management team is committed to developing an
                                accurate and complete master project plan that identifies the scope of the
                                work for major activities defined in the plan through a WBS. The team will
                                                                                                                      2/28/06         N/A         Yes        Open
                                have cost estimates for resource categories at the task-order level for
                                contractor resources. Performance measures to assess whether the execution
                                of the tasks is producing the desired effect will be monitored under a separate
                                plan.
                2 (Element 4)   The schedule will be monitored monthly by the ASTEP project management
                                team, using the Master Project Plan for scheduled starts, finishes, milestones,
                                critical path, and percent complete. The cost component will be monitored             2/28/06         N/A         Yes        Open
                                subject to FDIC system limitations. The Change Control will continue to
                                monitor the scope component of this element.
                2 (Element 5)   The ASTEP team will update the Risk Management Plan to include the
                                                                                                                      3/31/06         N/A         Yes        Open
                                team’s current risk assessment procedures.
                    2 (Element 6)       The ASTEP team will develop high-priority risk mitigation plans using more
                                        detailed templates provided by the FDIC’s Office of Enterprise Risk
                                        Management. The team will review the ASTEP Risk Log and Risk
                                                                                                                           3/31/06                 N/A           Yes          Open
                                        Management Plan to ensure that high-priority risks are identified with
                                        specific risk mitigation plans. Risk mitigation plans will be updated in the
                                        Risk Log or Risk Management Plan, as appropriate.
          a
              Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                         (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                         (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                             management provides an amount.
          b
              Once the OIG determines that agreed-to-corrective actions have been completed and are effective, the recommendation can be closed.
II - 12
